<html>
<title> - ENVIRONMENTAL INJUSTICE: EXPLORING INEQUITIES IN AIR AND WATER QUALITY IN MICHIGAN</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]






 
                        ENVIRONMENTAL INJUSTICE:

                        EXPLORING INEQUITIES IN

                         AIR AND WATER QUALITY

                              IN MICHIGAN

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON ENVIRONMENT

                                 of the

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 16, 2019

                               __________

                           Serial No. 116-60

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
 


                Available on: http://www.govinfo.gov
                 http://www.oversight.house.gov or
                    http://www.docs.house.gov
      
                             ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 37-954 PDF            WASHINGTON : 2019                       
                        
                        
                        
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Paul A. Gosar, Arizona
Wm. Lacy Clay, Missouri              Virginia Foxx, North Carolina
Stephen F. Lynch, Massachusetts      Thomas Massie, Kentucky
Jim Cooper, Tennessee                Mark Meadows, North Carolina
Gerald E. Connolly, Virginia         Jody B. Hice, Georgia
Raja Krishnamoorthi, Illinois        Glenn Grothman, Wisconsin
Jamie Raskin, Maryland               James Comer, Kentucky
Harley Rouda, California             Michael Cloud, Texas
Katie Hill, California               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Ralph Norman, South Carolina
John P. Sarbanes, Maryland           Clay Higgins, Louisiana
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Frank Keller, Pennsylvania
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
             Britteny Jenkins, Subcommittee Staff Director
                          Amy Stratton, Clerk

               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                                 ------                                

                      Subcommittee on Environment

                   Harley Rouda, California, Chairman
Katie Hill, California               James Comer, Kentucky, Ranking 
Rashida Tlaib, Michigan                  Minority Member
Raja Krishnamoorthi, Illinois        Paul Gosar, Arizona
Jackie Speier, California            Bob Gibbs, Ohio
Jimmy Gomez, California              Clay Higgins, Louisiana
Alexandria Ocasio-Cortez, New York   Kelly Armstrong, North Dakota

                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on September 16, 2019...............................     1

                               Witnesses

Dr. Delores Leonard, Advocate
    Oral Statement...............................................     6
Ms. Nayyirah Shariff, Director, Flint Rising
    Oral Statement...............................................     8
Dr. Paul Mohai, School or Environment and Sustainability, on 
  behalf of University of Michigan
    Oral Statement...............................................    10
Mr. Nick Leonard, Executive Director, Great Lakes Environmental 
  Law Center
    Oral Statement...............................................    11
Ms. Emma Lockridge, Climate and Environmental Justice Organizer, 
  Michigan United
    Oral Statement...............................................    13

Written opening statements and the witnesses' written statements 
  are available on the U.S. House of Representatives Repository 
  at: https://docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              

The documents entered into the record during this hearing are 
  listed below are available at: https://docs.house.gov.

  * National Education Association (NEA) Written 
  Statementsubmission for the record.



                        ENVIRONMENTAL INJUSTICE:


                        EXPLORING INEQUITIES IN


                         AIR AND WATER QUALITY

                              IN MICHIGAN

                              ----------                              


                       Monday, September 16, 2019

                  House of Representatives,
                       Subcommittee on Environment,
                         Committee on Oversight and Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:07 p.m., in 
the Gymnasium, 2260 S. Fort Street, Detroit, MI, Hon. Harley 
Rouda presiding.
    Present: Representatives Rouda and Tlaib.
    Ms. Tlaib. So, welcome. Welcome to how we are trying, as 
two new members to Congress, Chairman Rouda and I, we really 
believe in how we need to bring Congress to the neighborhoods, 
to the communities impacted by a lot of the issues that we see 
every single day, making sure you are connected to Congress and 
making sure that your real-life stories, the human impact of 
really the policies that we try to debate and try to push 
forward needs to be connected to the people at home. This is 
our opportunity to do that, to bring you to the table. So I 
want to thank all of you so much for being here.
    I also want to thank the incredible team at Kemeny 
Recreation Center. Give them a round of applause for opening up 
this space.
    [Applause.]
    Ms. Tlaib. Also, the team at Detroit Parks and Recreation, 
the staff, thank you so much.
    I also want to thank Drs. Leonard and Mohai. Did I get it? 
Thank you. Thank you for being patient with me.
    They did a toxic tour for both of us, and Congresswoman 
Debbie Dingell was with us this morning. So not only did we 
just want to have a hearing here, we also wanted to show them 
the living conditions that you all have every single day. We 
went by AK Steel, Marathon Refinery, and a number of the other 
industries around the community, so they got to see, again, the 
impact on your lives and what it looks like on the ground.
    All of you are now going to see, right here to my right, 
Emma Lockridge, who has been documenting. She lives right here 
in the community and has been documenting the human impact of 
living near high-polluting industry. So I want to thank her so 
much for sharing her photography here.
    Thank you, Emma.
    [Applause.]
    Ms. Tlaib. So, you all know I was born and raised here, and 
I really did think that smell was normal. No, I really thought 
that smell was normal, the number of trucks in my neighborhood 
was normal, the fact that when I played outside and came in I 
smelled like rotten eggs, that that was somehow normal. So it 
was really important when I was first elected and as I got into 
office that I was fighting for the right to breathe clean air, 
the right to access clean water.
    So today I am hoping, with the incredible people that you 
see at the table that we all have been working with for 
almost--some have been doing this work for 40 years, Dr. 
Leonard. Thank you so much, Dr. Leonard, for everything you 
have been doing for our community.
    [Applause.]
    Ms. Tlaib. Some have been at the front line of really 
trying to show what doing nothing looks like. I can tell you 
that having the legal expertise of Nick Leonard and [his] 
trying to help us really shows that there is technology, there 
is science, there is a way of living near industry in a way 
that is humane.
    As many folks are here, we also know we have local elected 
folks that I asked Chairman Rouda if I could recognize. We have 
State Representative Tyrone Carter here. Thank you so much for 
being here.
    [Applause.]
    Ms. Tlaib. Senator Betty Jean Alexander, thank you so much.
    [Applause.]
    Ms. Tlaib. Trustee Linda Jackson from Redford Township.
    [Applause.]
    Ms. Tlaib. We also had Councilwoman Raquel Castaneda-Lopez, 
who spent some time with us here before she had to leave. I 
want to thank her so much for coming and talking to some of us 
here.
    But thank you, thank you all deeply for being here and for 
wanting to participate in trying to make our community even 
better in fighting for clean air and clean water. Thank you 
again, Chairman.
    Chairman Cummings, who is not here, the Chair of our House 
Oversight Committee, has been an incredible mentor. He did not 
shy away from giving two new Members of Congress the rein on 
the Subcommittee on Environment, and I am so, so pleased to be 
serving with Chairman Rouda right now. He has been one of the 
key champions on PFAS contamination in our country and has not 
backed down.
    [Applause.]
    Ms. Tlaib. And you all know, PFAS is not a rural issue. It 
is happening right here in our backyard, at Melvindale, and now 
they even found it in Southwest Detroit, in the Delray 
neighborhood. So we have to be at the forefront again in 
holding these corporations accountable.
    Thank you so much, Chairman, and welcome.
    [Applause.]
    Mr. Rouda. Thank you, Vice Chair. It is a privilege to be 
here in Detroit this afternoon with you. This is an official 
congressional hearing, and I am going to open it up in just a 
minute. But I did want to share with you, as an official 
congressional meeting, we do things a little bit differently. I 
will do an opening statement, then Vice Chair Tlaib will do one 
as well, and then we will recognize the witnesses and they will 
have five minutes each to do an opening statement, and then we 
will have the opportunity to ask questions.
    But because I am the Chair, and with the permission of Vice 
Chair Tlaib, I asked if it was okay if we would afford an 
opportunity to you to ask some questions as well, and we plan 
to do that. We have some index cards that will be available. I 
know that some members of Vice Chair Tlaib's staff are holding 
their hands up in a few places. So if you would like a card at 
some point, maybe just step to the side and you will find 
someone and you can write a question, and then we will get it 
to staff to take a look. We will not have time for a lot, but 
we will have time for a few.
    So let me get situated here, make sure I have that situated 
correctly, and the committee will come to order.
    Without objection, the Chair is authorized to declare a 
recess of the committee at any time.
    This subcommittee is here to examine environmental justice 
issues in Michigan.
    I now recognize myself for five minutes to give an opening 
statement.
    As I said, I am honored to be here in Detroit today with my 
colleague, Vice Chairwoman Rashida Tlaib, who has been a 
dedicated leader on environmental issues in our subcommittee. 
It is a privilege to be able to visit her district and see 
firsthand, as we did this morning, how hard she has been 
working on behalf of the people of Detroit, and I look forward 
to continuing to work with her to ensure equal access 
throughout this country to basic human rights and to hear about 
what we in Congress can do to help make and achieve this 
realistic goal.
    Because the idea of basic human rights is, in essence, what 
this hearing is about, the right of every American to feel safe 
when we walk outside or turn on our faucets, safe from air 
pollutants that make us cough or gag, that give us emphysema 
and aggravate our asthma, safe from toxic chemicals and 
bacteria that jeopardize our children's brain development and 
weaken their immune systems. This safety is not and should 
never be contingent upon where we live, the color of our skin, 
our income bracket, our party affiliation, or any other 
superficial differences that needlessly divide us.
    It makes me heartsick that the people of Detroit and Flint 
have been living without their basic rights and that they have 
lost trust in elected officials. Earning their trust back won't 
be easy, but we in Congress are determined to make sure the 
reality of life in America lives up to the promise of America, 
the foundational promise that all people are created equal and 
all are equally deserving of a fair shot in life.
    Let me read you some statistics from the most recent 
Detroit Community Health Assessment, released last year by the 
Detroit Health Department. Thirty-eight percent of Detroit 
residents live in poverty, the highest percentage of any major 
U.S. city. The rate of infant mortality in Detroit is twice the 
rate of the state of Michigan. Detroit residents' life 
expectancy is lower than the statewide average in nearly every 
neighborhood, and the rate of emergency room visits in Detroit 
is nearly twice that of the rest of the state. Nine percent of 
children in Detroit have elevated levels of lead in their blood 
compared with four percent statewide.
    Other reports tell us that over eight years, water and 
sewer costs in the city of Detroit have risen steadily, and 
already-struggling low-income residents are paying 
approximately 10 percent of their monthly income on water 
bills. Water service has been shut off for many households in 
the city. Five years after public officials made the decision 
to switch its water supply, the city of Flint has still not 
fully recovered. Flint's mayor has still not declared the 
city's water safe to drink, and city residents are paying money 
they can't afford for bottled water because they cannot trust 
the assurances that the crisis is over.
    We in Congress are working to demand accountability for the 
tragedy in Flint, and we want to ensure a crisis of this 
magnitude never happens again and that we have safe drinking 
water not just in Detroit, not just in Flint, but throughout 
Michigan and our great country.
    [Applause.]
    Mr. Rouda. We as policymakers need to understand that when 
communities don't have clean air or access to clean water, that 
affects every aspect of life. Property values decrease, 
population decreases, people get sicker, the quality of 
sanitation declines. One disparity quickly leads to others, and 
because of this, in the year 2019 we see the kind of stark 
inequalities that shake the foundations of our democracy. This 
cannot stand.
    Fundamentally we are here today not just to talk about 
clean air and clean water and equal access to our natural 
resources; we are here to remind ourselves what kind of country 
we want to be. It has been more than 50 years since Dr. Martin 
Luther King, Jr. spoke of the existence of two Americas, and it 
remains just as true now as it was then, that injustice 
anywhere is a threat to justice everywhere.
    I hope that the testimony we hear today will be a call to 
action for all of us to demand a version of America in which we 
can all drink, breathe, and live freely, and I believe that day 
will come. Thank you.
    I now invite the subcommittee's Vice Chair, Ms. Tlaib, to 
give a five-minute opening statement.
    Ms. Tlaib. Thank you so much, Chairman.
    I am honored to bring Congress to the original Southwest 
Detroit in the zip code of 48217, where I have spent countless 
hours alongside community activists and experts fighting for 
the right to breathe clean air and drink clean water. It is so 
incredibly wonderful to see many of my friends on the panel 
today and to elevate the voices of our community on a national 
stage.
    We hear so much testimony from so many experts in D.C., but 
often what is missing is that connection to the lived 
experience. So we are here today in Michigan's most polluted 
zip code, a resilient zip code, to hear from a family, a family 
of environmental warriors who have fought for our public health 
in the streets and in the legislature and in the courts. Thank 
you all for being here today to educate the U.S. Congress on 
the challenges we face here in Michigan.
    I am going to focus today on two truths: we have a right to 
breathe clean air, and water is a human right. I have been in 
this fight for environmental justice for a long time. Growing 
up, I did think that smell was normal from industrial 
pollution. Entire generations grow up in sacrifice zones where 
our air and water is polluted by wealthy corporations for 
profit, and we are expected to accept that.
    I took my fellow congressional members on the toxic tour 
this morning because I needed them to smell what my community 
smells every day and what they feel - what my community feels - 
every single day. Just last week, residents in the neighborhood 
surrounding this field hearing were exposed to yet another gas 
leak from Marathon plant. They are still searching for answers. 
What was released? Is it safe to breathe the air? It is, sadly, 
a familiar story for this community.
    Marathon, like so many other corporate polluters, likely 
won't face any meaningful consequences, and this will continue 
happening. They have just written off these leaks as a cost of 
doing business. But we know that our communities, our 
neighbors, and our families are so much more important than 
corporate profit.
    We have a right to breathe clean air, so we will never stop 
organizing to get it.
    Water is a human right, and so we are going to ensure that 
every single person has access to clean water.
    We take on these big fights because we don't have any other 
alternative. When people take to the streets to protest for 
environmental justice, they are standing up for their lives, 
their right to live.
    Thank you all so much for being here at this critically 
important hearing, and I can't wait to hear from our community 
experts.
    Thank you so much, Mr. Chairman.
    Mr. Rouda. Let's thank Chairwoman Tlaib again for bringing 
us all together. We really appreciate your efforts.
    [Applause.]
    Mr. Rouda. At this time, I would like to recognize our 
witnesses. We have Dr. Dolores Leonard, an advocate. I thank 
you again for taking the time to take myself and many others 
from our delegation around the city and the affected areas to 
better understand the immense challenges for the community.
    Ms. Shariff, the Director of Flint Rising; thank you as 
well.
    Dr. Mohai, School of Environment and Sustainability from 
the University of Michigan. I am a Buckeye, but this shows that 
we can still work together across old differences.
    Nick Leonard, Executive Director of Great Lakes 
Environmental Law Center.
    And Ms. Lockridge, the climate and environmental justice 
organizer for Michigan United.
    I would ask all of you to please stand and raise your right 
hand.
    Do you swear to tell the truth, the whole truth, and 
nothing but the truth, so help you God?
    Thank you. Please be seated.
    Let the record show that the witnesses answered in the 
affirmative.
    The microphones are sensitive, so if you could please speak 
directly into them.
    Without objection, your written statements will be made a 
part of the record.
    With that, Dr. Leonard, you are recognized to start for 
five minutes of your oral presentation of your testimony.

         STATEMENT OF DOLORES LEONARD, ED.D., ADVOCATE

    Dr. Leonard. Thank you. Mr. Chair, I was required to submit 
my comments last week, but I plan to deviate, with your 
permission.
    Mr. Rouda. Absolutely. And if you would please pull the 
microphone very close to you.
    Dr. Leonard. Better?
    Mr. Rouda. I think so. Based on the nods in the audience, I 
think that is correct.
    Dr. Leonard. Thank you. Because I am a former classroom 
teacher and I become winded, I am going to give my conclusion 
first.
    Along the way, I have come to understand that it is the 
political climate, elected officials, and the economic 
environment--industries, companies, and stockholders--that 
dictate the guidelines written for environmental protection for 
citizens. I understand, in many cases, it is the elected 
politicians who, relying upon campaign financing from lobbyists 
of the very companies emitting in my community, write laws 
under which I must live while they may not understand fully the 
ramifications of their writings. I also recognize that, in many 
cases, it is the lobbyists who write the environmental laws 
that are given to the Environmental Protection Agency to 
implement, which are given to states to enforce.
    I am always mindful of Alan Greenspan's comments when he 
explained the concept of collateral damage, clearly describing 
my community, collateral damage.
    I will give you two what I call lasting and traumatic 
personal experiences of mine.
    On Monday, August 3, 1998, at approximately 3:15 p.m., 
there was an explosion in my home. I was sitting at my kitchen 
glass table that shook. I ran out of the house screaming. There 
was no one outside. All of this was very strange and terrifying 
for me. Everyone was at work. Having lived through two Ford 
Motor Company explosions a few years back, I knew what an 
explosion sounded like and what it felt like, because each time 
of the Ford explosions I had been in my basement. I live 
approximately eight miles from that Ford Motor Company complex. 
It took me approximately one year to determine why every 
weekday between 3:15 and 3:45 p.m., and most Saturdays at 12 
noon, the explosion would occur. The explosions were coming 
from the Detroit Salt Company dynamiting for salt.
    A community resident shared a copy of a contract between 
the city of Detroit and the Detroit Salt Company that permitted 
removal of salt underground between the streets and the alleys. 
I ask you, what sits between the streets and the alleys? Our 
homes. Our ceilings and walls were cracked. Pictures fell off 
the walls. Driveways were cracked. The foundation of many homes 
was destroyed. Of course, we had nothing to prove before and 
after in terms of pictures.
    The community as a body appeared before the city of Detroit 
Council to protest. While the amount of dynamite used appeared 
to be less powerful, the extractions continued for 
approximately two to three more years.
    Years before moving to the Delray area, that is what I last 
heard where they were.
    It was August 3, 1998 that I officially became an 
environmentalist, and I have brought with me today a map in the 
corner there that depicts my community, showing the surrounding 
industry.
    Another illustration. Approximately five to 10 years ago, I 
unexpectedly drove into a mist, a vapor. I entered the mist not 
realizing while driving that it was there. It began at the 
number 50 Marathon Refinery storage tank and continued until I 
exited on the other side of the viaduct on Shafer and at the 
Dicks Road street. My window was down. The kerosene odor came 
into the car. I could not see to drive forward, nor to turn 
around and get out of the situation. I could only creep along 
slowly, terrified I might hit another driver or be hit by a 
driver. That was an extremely frightening experience.
    Whenever Marathon has a chemical release, the company 
releases a statement that always states the public need not be 
concerned as there was no health harm. Never do they discuss 
the psychological stress the citizens living in the area 
endure.
    The 48217 zip code community is a small enclave that is a 
part of the city of Detroit.
    Is that a stop? Oh, I am looking at the red.
    The 48217 zip code community is a small enclave that is a 
part of the city of Detroit, but few people realize this 
community exists because of its location. The average income is 
below $30,000. Education level, generally high school 
graduation. Census 2010 population data for 48217 was 8,210 
people. The stated black or African American population was 
6,625, or 80.7 percent. Total occupied housing units, 3,216 or 
80.9 percent. Census tracts 5248, 5247, and 5245.
    In March 2016, Zoe Schlanger wrote a Newsweek article, 
``Detroit Makes You Sick.'' She states, ``There is something 
like 52 sites of heavy industry in a tiny little three-mile 
area in River Rouge, Ecorse, Melvindale, and the 48217 area.'' 
The article is very explicit in describing the living and 
health conditions caused by pollution.
    In a March 29, 2016 article written by Schlanger and that 
appears as a website article, ``Michigan's Air Pollution 
Problem Is Much Bigger Than The Water In Flint,'' this article 
describes a parent having an asthma attack. And she was asked, 
why do you stay here? Why not move? Her response was, ``Because 
of low rent.''
    Michigan Department of Environmental Quality, now known as 
Environment, Great Lakes, and Energy--EGLE--has no choice but 
to issue operating permits if the application documentation 
presented by various industries meets all necessary emission 
guidelines. However, what is not being considered and omitted 
in permitting is the cumulative emission of all these 
industries within the area who are emitting the same chemical. 
In other words, what I am saying is if Company A is emitting, 
Company B is emitting, Company C is emitting, MDEQ EGLE does 
not add all of that together. They look at each individual 
company and they issue a permit. What is impacting my community 
is when all of these, this aggregate comes together, and that 
is what impacts the health and has a psychological impact on my 
community. That is what I am trying to say. This is a life and 
death situation.
    [Applause.]
    Dr. Leonard. We were fortunate in 48217 to work with MDEQ, 
and we do have a neighborhood air monitoring station that sits 
behind New Mount Herman Church.
    I have a lot to say, and I become very frustrated when I 
begin talking, and I think I should stop.
    Mr. Rouda. Thank you, Dr. Leonard.
    [Applause.]
    Mr. Rouda. The Chair now recognizes Ms. Shariff for five 
minutes of oral testimony.

     STATEMENT OF NAYYIRAH SHARIFF, DIRECTOR, FLINT RISING

    Ms. Shariff. Thank you, Mr. Chair and Representative Tlaib.
    The Flint water crisis is an example of what happens when 
the needs of profit and industry are deemed more important than 
the needs of the people. Flint residents lost their local 
democratic rights, and their local elected officials had their 
powers usurped due to the imposition of Michigan's emergency 
manager law. Supposed debt in majority black-and brown-
populated school districts and municipalities, in addition to 
assets that could be privatized, were the driving motivator for 
the communities who would lose their democracy. Since the 
passage of the emergency manager law in March 2011, no majority 
white community within the state of Michigan has been taken 
over by the state and lost their democracy.
    My foray into the fight for clean water was embedded in the 
larger fight for the restoration of democracy in Flint. At the 
time of the switch, I was a member of the Flint Democracy 
Defense League, a grassroots group of Flint residents, some of 
whom are seated in the audience--I see you all five years too 
long--who came together after Flint went into state 
receivership. Immediately after the switch to the Flint River, 
the water coming out of my tap was brown, yellow, and/or 
smelled like an open sewer. Within a month I was boiling my 
water and had a point-of-use Brita filter in the kitchen. 
Unfortunately, I was still bathing in unfiltered water. I was 
getting rashes and I had what I believed to be cystic acne. We 
had ``boil water'' advisories. Our water bills ballooned to the 
highest in Genesee County. Little did we know at the time we 
were paying one of the highest water and sewer bills in the 
country for poisoned water.
    Because our group understood the emergency manager law, we 
knew we had to force the state to switch us back to a clean 
source of water. The fact that your government was the primary 
party responsible for the poisoning of a community was nearly 
unheard of, and it took a very long, hard, old-fashioned 
organizing fight to even get the state to acknowledge that we 
had toxic water.
    I have worked as a community organizer and racial justice 
facilitator for over 15 years. One lesson I took from the work 
is the expertise is in the room. Unfortunately, residents were 
not in the room when solutions to the Flint water crisis were 
crafted. We never wanted to live our lives using bottled water. 
Bottled water sends a message that water should be 
commoditized. How can there be a price tag for something 
essential to human life? In addition, the plastic is sourced 
from petrochemicals, which in turn resources the fossil fuel 
industry.
    These refineries are located primarily in communities of 
color. We wanted Medicare For All, but we received non-income 
test Medicaid, leaving people over the age of 21 and non-
pregnant adults without health care. We wanted water mains, 
internal plumbing, and service lines replaced, but we only 
received service line replacement through a settlement 
agreement. We wanted people to be held accountable for the 
cover-up, but in June of this year the Michigan Attorney 
General's Office dropped the charges for the 15 state and local 
employees responsible for the Flint water crisis. The state 
employees who did not previously resign reported back to work 
in July.
    If there hasn't been a long-term plan developed to fix 
Flint, how can you fix any other community? It is a false 
argument that compliance equals safety. Twelve parts per 
billion, 15 parts per billion, those numbers are all made up. 
The American Medical Association says there is no safe level 
for lead. So why don't we have health-based standards at the 
EPA? Flint was denied a Federal disaster declaration because of 
the Stafford Act. The Flint water crisis didn't occur because 
of a tornado, hurricane, or earthquake. It was caused by 
environmental racism, white supremacy, patriarchal 
decisionmaking, capitalism, and the belief that the needs of a 
large corporation like General Motors are more important than 
the needs of poor black and brown people who can't afford to 
pay $200 to $300 a month for poisoned water.
    [Applause.]
    Ms. Shariff. The Stafford Act needs to be amended to 
include the poisoning of communities through air and water. We 
have a registry, but we didn't have a compensation fund to meet 
our long-term health care needs. Flint residents never stopped 
paying a premium price for poisoned water, and water systems 
can charge as much as they want through fees without any 
transparency or accountability. High water bills in Flint have 
caused families to live without water. We need a Federal 
income-based water affordability plan so water is affordable 
for all, with shut-off protections for seniors, families, and 
children, and individuals who need water for their medical 
needs. Finally, we need massive infrastructure investments to 
remove these lead pipes once and for all.
    It has been over five years since the switch to the Flint 
River, 1,970 days to be exact. My life has changed in ways I 
couldn't even imagine. My health has gotten worse. One of my 
seizures has partially paralyzed my vocal cords and has changed 
my voice. I can no longer raise my voice. Even though they are 
mostly under control now through the help of medication, I know 
that if I did not have a job that offered an affordable, 
comprehensive medical plan, I would have to make decisions 
between bills and my medication. Fortunately, I also have the 
opportunity to travel and tell my organizing story in this 
long-haul fight for reparations and justice.
    Thank you.
    [Applause.]
    Mr. Rouda. Thank you, Ms. Shariff.
    The Chair now recognizes Dr. Mohai for five minutes of oral 
testimony.

 STATEMENT OF PAUL MOHAI, PH.D., PH.D., SCHOOL OF ENVIRONMENT 
    AND SUSTAINABILITY, ON BEHALF OF UNIVERSITY OF MICHIGAN

    Mr. Mohai. Thank you, Congressman Rouda and Congresswoman 
Tlaib. Thanks for the opportunity to participate in today's 
hearing.
    In 1987, the United Church of Christ report, ``Toxic Wastes 
and Race in the United States,'' was the first study to examine 
the distribution of hazardous waste sites around the Nation. It 
found that the concentration of people of color in zip codes 
containing hazardous waste facilities was double that in zip 
codes without. It also found that the concentration of people 
of color in these zip codes was the best predictor of where 
such facilities are located, even when controlling for incomes 
and property values.
    In the late 1980's, I teamed with Professor Bunyan Bryant, 
now an emeritus professor at Michigan, to investigate this 
issue more closely. Our first endeavor was to see whether other 
such studies existed and whether they pointed in the same 
direction. At the time, we found over a dozen such studies, all 
demonstrating either racial or socioeconomic disparities in the 
distribution of environmental hazards of a wide variety, with 
race most often the best predictor.
    As faculty investigators of the U-of-M's 1990 Detroit area 
study, we conducted the first environmental injustice analysis 
in the metro area. We determined the locations of respondents 
and measured their distances to a wide range of potentially 
hazardous sites, including hazardous waste facilities, 
Superfund sites, polluting industrial facilities, and others. 
We found statistically significant disparities based on the 
race and incomes of the respondents, and as with ``Toxic Waste 
and Race in the U.S.,'' we found race to be the best predictor.
    Also in 1990, Professor Bryant and I organized the Michigan 
Conference on Race and the Incidence of Environmental Hazards. 
This was the first conference to bring together academics from 
across the U.S. who were studying environmental disparities to 
discuss their research and the implications of their findings. 
The conference and its proceedings got the attention of the 
U.S. Environmental Protection Agency. After the conference, EPA 
Administrator William Reilly invited and met with conference 
representatives to talk about our findings and what the agency 
could do.
    After several meetings, the EPA published a report entitled 
``Environmental Equity: Reducing Risks for All Communities.'' 
This report included an independent review of the evidence and 
concluded that environmental inequalities in the U.S. needed to 
be addressed, and it offered recommendations. Shortly after the 
EPA released its report, the House of Representatives convened 
hearings. Over the years, numerous bills have been introduced 
in Congress, none of which have been signed into law.
    In 1994, President Clinton issued Executive Order 12898 
calling on all Federal agencies, not just the EPA, to take into 
account the environmental justice consequences of their 
decisionmaking.
    Over the years I have conducted a number of national-level, 
state-level, and metropolitan-level studies of environmental 
inequality and disparity. The outcome of these studies have 
consistently shown disproportionate environmental burdens in 
poor communities and communities of color. At the same time, 
this research has expanded into multiple disciplines such as 
public health, law, economics, urban planning and others, 
showing much the same results.
    In the interest of time, please refer to my written 
testimony for further details about my research and findings 
and those of others.
    Despite the considerable amount of research, evidence, and 
scholarly writing on the issue of environmental racism and 
injustice in the past 30 years, policy development to remedy 
the problem has been surprisingly slow. Despite the 1994 
executive order, there has been little evidence that actual 
progress to improve conditions in impacted communities has been 
made. Until the Flint water crisis became an international 
story, it was rare to hear environmental disparities and 
injustices acknowledged or to hear the terms ``environmental 
racism'' and ``environmental justice'' in public discourse.
    The Flint water crisis began to change this. In my opinion, 
it is the most egregious example of environmental injustice in 
the U.S. in my over 30 years of studying this issue. I am not 
aware of any environmental bills that have been enacted into 
law either in Michigan or nationally. State and national laws 
that explicitly address environmental injustice need to be 
enacted. They need to be adequately funded and followed up by 
relevant regulatory agencies with well-articulated, step-by-
step procedures to make certain these laws are fully 
implemented and enforced.
    Furthermore, quantitative measures should be developed, and 
annual assessments conducted, to determine whether genuine 
environmental justice improvements are being made. Until this 
happens, I believe most current state and Federal policies will 
simply remain declarations of good intentions.
    Thank you for this opportunity to provide testimony to the 
committee. I look forward to answering any questions you may 
have. Thank you.
    [Applause.]
    Mr. Rouda. Thank you, Dr. Mohai.
    The Chair now recognizes Mr. Leonard for five minutes of 
oral testimony.

  STATEMENT OF NICK LEONARD, EXECUTIVE DIRECTOR, GREAT LAKES 
                    ENVIRONMENTAL LAW CENTER

    Mr. Leonard. Good afternoon, Congressman Rouda and 
Congresswoman Tlaib. It is fantastic that you are here to hear 
all of us.
    In my work as the Executive Director of the Great Lakes 
Environmental Law Center, I have worked with residents in 
Southwest Detroit and the south end of Dearborn to address air 
pollution, residents on the east side of Detroit to address the 
expansion of a hazardous waste facility, residents on the east 
side of Detroit to close down a trash incinerator, residents 
throughout Southeast Michigan that are confronting issues of 
drinking water quality and affordability. Through my work with 
all of these communities, I have come to deeply understand how 
our Federal environmental laws fail to adequately address the 
concerns of communities of color and lower income, and today I 
am going to talk about that failure and how it can be remedied.
    Injustice in law and policy often starts with an absence, 
specifically the absence of people of color and lower income in 
creating that law or policy. This absence leads to the creation 
of laws or policies that ignore the concerns of people of color 
and lower income, and this ignorance, particularly if left 
unremedied for long periods of time, as has happened here, 
leads many people of color to logically and correctly conclude 
that while our environmental laws adequately protect whiter and 
more affluent communities, they fail to protect communities of 
color.
    The environmental injustices here in Southeast Michigan are 
indicative of similar problems in communities of color across 
the country. Numerous studies have found that communities of 
color and lower income are disproportionately exposed to higher 
levels of air pollution when compared to whiter, more affluent 
communities. Our investor-owned electric utility, DTE, is 
proposing to increase residential rates by nine percent and is 
failing to provide low-income residents with access to 
renewable energy, ensuring that such communities will be locked 
into the fossil fuel economy that is harming their health.
    Hazardous waste facilities such as U.S. Ecology's facility 
in Detroit are overwhelmingly located in communities of color 
and lower income. Increasing rates of water service are forcing 
low-income residents in Southeast Michigan to pay 10 to 20 
percent of their household income on water bills. Due to these 
unaffordable rates, 84 percent of these residents are cutting 
back on monthly expenses for things such as food, medicine, and 
rent, and 51 percent are switching off paying their energy 
bills and their water bills on a month-to-month basis.
    How has this been allowed to happen? In the absence of 
Federal requirements, many states, including Michigan, have 
failed to take action to address these issues and the 
environmental concerns of people of color. Today in Detroit's 
communities of color, gas-fired power plants are being built, 
hazardous waste facilities are being expanded. And because the 
concerns of these communities of color are not reflected in the 
law and they are not required to be addressed, our 
environmental agencies that decide whether to allow these 
projects to move forward must, in accordance with that law, 
ignore the concerns of people of color. Put another way, the 
law ignores people of color, and as a result the agencies in 
charge of administering them do as well.
    In regards to drinking water, the Federal Government's role 
has largely been twofold, regulating the quality of water and 
financing drinking water infrastructure improvements through 
state revolving fund programs. However, Federal funds dedicated 
to drinking water infrastructure improvements are well short of 
the need. EPA has estimated that Congress needs to spend 20 
times the amount appropriated in 2019 over the next 20 years to 
ensure that all Americans have safe drinking water.
    Given the shortfall in Federal funding, many public water 
suppliers are increasing water rates to unaffordable levels. 
However, nothing in Federal law directly addresses the existing 
and ever-growing water affordability crisis that is 
predominantly impacting communities of color and lower income 
and that are sure to get worse in the coming years.
    The most significant Federal law that does address the 
environmental concerns of communities of color is Title 6 of 
the Civil Rights Act of 1964, which prohibits state 
environmental agencies from discriminating on the basis of 
race, color, and national origin. However, the U.S. Supreme 
Court has interpreted the law to only prohibit intentional 
discrimination by state agencies and not activities that have a 
disparate impact on communities of color, essentially 
nullifying that requirement.
    The U.S. EPA has adopted Title 6 regulations that prohibit 
state agencies from activities that have a discriminatory 
affect regardless of intent. Theoretically, residents can 
submit a Title 6 complaint to the U.S. EPA to address 
violations of EPA's non-discrimination regulations. However, 
the EPA's Title 6 complaint process has a well-documented 
history of mismanagement, making it largely ineffectual for 
communities of color.
    So how is this to be remedied? I provided you with a 
further list of written recommendations. But to summarize, at a 
minimum the EPA should diligently administer its existing 
regulations prohibiting states from activities that have a 
disparate impact on communities of color. Additionally, as has 
been shared by numerous people on this panel, we need more just 
environmental laws and policies that are developed in 
partnership with communities of color and lower income and that 
adequately address the unique environmental issues that these 
communities face on a day-to-day basis.
    Thank you very much.
    [Applause.]
    Mr. Rouda. Thank you, Mr. Leonard.
    The Chair now recognizes Ms. Lockridge for five minutes of 
oral testimony.

STATEMENT OF EMMA LOCKRIDGE, CLIMATE AND ENVIRONMENTAL JUSTICE 
                   ORGANIZER, MICHIGAN UNITED

    Ms. Lockridge. Thank you so much. Thank you, Congressman 
Rouda and Chairman Tlaib, for all the work you have done here 
assisting us over the years. I would like to just acknowledge 
some of our frontline fighters, environmental fighters: Theresa 
Landrum sitting here, Vincent Martin and Tyrone Carter, and 
others. I stand on their shoulders. I was amazed over the years 
some of the impactful work they have done in this community.
    I want you just to imagine, if you will, being asleep at 
3:30 in the morning, and all of a sudden you start coughing, 
you get choked. Then your own coughing wakes you up, and you 
don't have a cold. Then your nose alerts you to the fact that 
there are chemicals in your bedroom and you can't breathe, and 
they smell toxic, and they are choking you. These are the 
emissions that we have experienced as an ongoing presence in 
our homes from Marathon Petroleum Corporation over the years.
    What I have done personally for myself is, when I have a 
chance at the doctor's office, I grab a mask and I put it over 
my nose, and then I grab pillows and I put them over my head, 
and then I put the covers over my head and I try to get a few 
winks of sleep. I have neighbors who have told me what they do 
is run to the kitchen, get some bleach, go to the basement, 
pour it down the drain, hoping that will help the odor subside.
    This is no way to live, and we have had this problem, and 
we have complained about this problem over the years.
    Also, what is important to know is that when we talk about 
environmental racism, it started for us the moment our parents 
signed the deeds to our homes. This goes back to the 1950's, 
and even before that, when our parents moved here from the 
south, escaping Jim Crow and the crushing racism down there, 
only to realize they had landed up south. And when they moved 
into these communities, they were restricted from moving 
wherever they wanted to. They were forced to live near 
refineries. They were forced to live near polluting rivers. 
They were forced to live near the company DTE Energy, the 
largest S02 producer in this area. They were forced to live 
near these facilities. They were forced to be necklaced by 
steel mills, and they didn't know. They thought they were 
giving us a better life, but what they were doing was 
shortening our lives when they moved here.
    I live--turn out of the parking lot, turn left, and I live 
directly across the street from Marathon Petroleum. That is 
where our subdivision is. Some people call it the North Boynton 
community. Some people call it the Jeffries community, where 
our school used to be. Some people call it The Hole. All of our 
streets run right into a spur of the Rouge River, and that is 
where we dead-end, and we are indeed trapped in a hole.
    But one of the worst things going on right now, and it is 
still present in our subdivision, is that five acres where our 
former school existed, Jeffries, where I attended elementary 
school from kindergarten to the sixth grade, is a brown field. 
It is a brown field. It is toxic. No one, children in 
particular, are supposed to play or be on lead. I mean, if you 
reach 600 parts per million, that triggers danger signs.
    That field has 13,000 parts per million of toxins and 
arsenic, right in the middle of our subdivision, one block from 
my house. There is not, to this day, one sign over there that 
says ``Toxic Field.'' Kids still go over there in the summer 
and play. We are still being poisoned. Not one house has ever 
been tested across the street from this facility, and it is a 
brown field.
    I contacted the EPA. I contacted the state. They did 
nothing. Why? Because we are black. They do nothing. They had a 
similar field like that in Lavonia, fixed it, and they are out 
there playing soccer on it now. But we are black, so we get a 
different response.
    What does this all mean for us, to be in this toxic 
environment? It means, for me, kidney failure. I had to have a 
kidney transplant. Thank God my nephew donated to me 12 years 
ago. That is why I am able to sit here. Can we give Lorenzo 
Robeson a round of applause?
    [Applause.]
    Ms. Lockridge. That means my next-door neighbor now is on 
dialysis. That means my neighbor across the street died on 
dialysis. That means my handyman cutting the grass today who 
lives around the block from me is on dialysis. That means my 
precious sister Paula, who was one of the most athletic people 
I have ever met, who played on that toxic field with us, died 
of kidney failure before she reached the age of 50. That means 
I have been diagnosed with non-Hodgkin's lymphoma. I have 
cancer, like so many people out here. That means I have to use 
an asthma inhaler. That means my precious mother died, had 
COPD. My brother died of lung cancer. Yes, he smoked 
cigarettes, but lung cancer. A lot of us smoked. That means my 
dad died of cancer, cancer everywhere.
    We are a sick community. That is what that means.
    So I am just glad that when they had the release over at 
Marathon the other day, I was grateful I wasn't home, not 
because I am afraid, because I don't live on fear. I am a woman 
of faith, okay?
    [Applause.]
    Ms. Lockridge. I am never afraid of anything. But I would 
have been out there with my camera, just like I have done over 
these years, documenting that. I would have had firsthand 
photographs, because no matter what a company says, I will have 
the documents to show what the true story is. But one of my 
neighbors came over and gave me the pictures anyway because now 
they know this is what they are supposed to do.
    So environmental racism has had a huge impact on our lives, 
not just health, and when I say these health situations, I am 
talking about people I know, not just me. Theresa Landrew 
sitting right there has had to deal with cancer. I am not 
talking about just me. I am talking about just us, Baby Boomers 
who grew up in this community.
    So on top of our health, we have lost our wealth. My 
parents paid $8,000 for a four-bedroom home in the 1950's, and 
it is worth about $8,000 right now. So something tells you 
something is horribly wrong right here.
    So what I want to say is there are some people here who 
want to stay here, and I understand that. We have communal 
ties. It has always been a very strong community, very loving 
people. We watch out for one another. We grew up in the Motown 
era, dancing under the streetlights and singing. But you know 
what? For me, time is up. I want out of here, because 
everything around me is just too toxic with DTE Energy.
    With this list, my house, I discovered--I met with Dr. 
Mohai this spring, and we discovered my house is in the center 
of all those dots. So it is time to go.
    I am going to leave you with a quote from Dr. Martin Luther 
King, Jr., and this is what Dr. King said. He said, ``It really 
boils down to this: that all life is interrelated. We are all 
caught in an inescapable network of mutuality, tied into a 
single garment of destiny,'' a single garment of destiny. 
``Whatever affects one directly, affects all indirectly.''
    In other words, there is no wall around air pollution. What 
impacts us today, the canaries in the climate change cave--that 
is who we are--what impacts us today reaches everyone at some 
point. So we need to earnestly work together to fix this. Our 
legislators, policymakers, environmental groups, industry, we 
need to sit at the table with them to work through this, and 
everyone who is concerned who would like to wake up breathing 
clean air, drinking clean water, I do this work for the babies. 
That is why I put them right in the center of all those 
pictures over there.
    Time is up for me. My life is going to be shortened. I 
already know that. But you know what? We still have time to 
protect our children. Thank you.
    [Applause.]
    Mr. Rouda. Thank you, Ms. Lockridge.
    And thank you to all of the members on our witness panel.
    At this time I am going to pass the microphone to Vice 
Chair Tlaib to take five minutes of questions.
    Ms. Tlaib. Thank you so much, Chairman.
    I do want to take a moment because this is my neighborhood, 
and I don't want to not recognize some elected folks. But I do 
want to acknowledge that our Wayne County Commissioner, Iona 
Vargas, just walked into the hearing--thank you so much for 
being here--as well as city of Ecorse Councilman Divante 
Charizard, and our Dearborn Heights Councilwoman, Lisa Hicks 
Clayton. Thank you.
    The environmental injustice affects all of Wayne County, 
just to be very clear. The EPA says that we have unsafe levels 
of sulfur dioxide, yet they just closed, as you all know, the 
EPA office that is closest to us, Eagle, where our emergency 
response teams were based out of. Now they moved them to Ann 
Arbor. Yes.
    So you all know that we still have a huge fight on our 
hands, and we need to get our EPA office back into Wayne 
County. I have been working with Congresswoman Debbie Dingell 
to try to fight that, but we all need to stand up together and 
get our inspectors closer to our homes.
    We are also here today because, as Emma Lockridge said, I 
mean, this is the sacrifice zone, right? Wayne County 
especially, in all corners of the district, from AK Steel--I 
think they outputted 700 percent above their air permit, which 
is right here in our backyard--to Marathon Oil Refinery, which 
has been cited by the state of Michigan at least 13 times in 
the past six years for violations of its air permit and the 
Clean Air Act.
    Now, you all hear me saying this. This is the impact. It 
releases toxic chemicals that are known to cause respiratory 
illnesses, cancer, and birth defects. We literally had toxic 
gas leaks from Marathon last week, as you all know, which 
caused them to evacuate the plant, but not our neighborhoods.
    And it isn't just this neighborhood. Communities on the 
east side near the Chrysler plant are exposed to some of the 
worst air pollution in the state of Michigan. And neighbors 
surrounding the U.S. Ecology facility have been fighting 
against its expansion for years.
    So this is a Wayne County effort. The whole state is 
impacted by this.
    Ms. Lockridge, what are cumulative impacts, and how is the 
law's failure to consider them hurting our communities?
    Ms. Lockridge. Cumulative impacts are the red dots behind 
you. The short explanation for what are cumulative impacts, it 
is death. It is early death. It is illness. It means that--and 
it is really unbelievable, and this is where we would really 
like help from the national level because we have over nearly 7 
million people in this country living in the shadow of oil 
refineries, but there are also people living near pig farms. 
There are people who are living near steel mills, all types of 
things that need to be measured with other things going on 
around them. So cumulative impacts, it is, like, what is it? It 
is this thing that causes all of this chronic illness.
    I have my dear friend Denise sitting here in the audience 
today. She moved back into the community a very healthy person 
about five years ago, and now she has chronic respiratory 
problems, and she has other illnesses that I won't say, but 
they are all related to moving back into this community.
    It means fear. I don't mean the kind of fear that this 
causes over here, but there is a dis-ease, if you will. If you 
wonder, when that siren goes off, which we have heard four 
times over the past year, is it the end, we don't want to 
become a Bhopal caused by one of these corporations around here 
where we are literally incinerated in our homes. We live too 
close to too many things that can go wrong. We have a hydrogen 
facility in this region that could blow.
    So that is what it causes, and it causes--you know, people 
have houses--most of us, this is a generational community. Many 
of us inherited the homes that our parents so earnestly worked 
hard for. To sit there in a worthless house, or to sit there 
when you see maybe good things happening for other communities, 
it hurts you to the core because you know that your life is 
being devalued. That is really the bottom line of this. From 
the 400th anniversary of enslavement in this country, we are 
still not fully recognized as full human beings, right? So when 
you are not recognized, you can do anything to an animal that 
you would not do to your cousin or your nephew or your niece.
    That is what these cumulative impacts mean.
    One thing I will tell you for sure, because Marathon has 
said many, many times that their three percent--they have a 
pie. We are three percent of all the pollution in this area. 
Think about that for a second. If they are only three percent 
and we go through all of this, and there is 97 percent worse, I 
mean, we are totally doomed.
    So we need to jump in and fix all of this as soon as 
possible.
    Ms. Tlaib. Thank you.
    Professor Mohai, Dr. Mohai, and Mr. Nick Leonard can also 
answer. What does it look like if you go through an air permit 
process, say Marathon or AK Steel? What does it look like if 
you require them to do a cumulative impact analysis that they 
would pay for in regards to applying for their permit? What 
does that mean if it is implemented tomorrow? I mean, I 
introduced stuff on the state level. But if, on the national 
level, if we were to do it this way, to say you have to look at 
cumulative impacts, all of the air permits together, what is 
the impact together versus looking at them individually as 
outputs?
    Mr. Mohai. Well, let me begin by saying that part of the 
current problem we have in terms of lack of adequate policy is 
we do tend to evaluate sources of pollution one at a time 
without taking into account what is already there. Communities 
that are already overburdened, we can't simply pretend that a 
new pollution source will have no greater harm than if we were 
in a community with a lot less.
    I think I am going to defer to Nick Leonard about the other 
part.
    Mr. Leonard. How I often talk about cumulative impacts is 
how our air permitting system works. It works pollutant by 
pollutant, facility by facility, and that is the original sin 
of our Clean Air Act, which I should point out was created in 
1970, long before environmental justice arose as a movement in 
the late 1980's and moving into 1990.
    So what that means functionally is that when somebody goes 
to get a permit, when a company like AK Steel goes to get a 
permit, or when Marathon goes to get a permit, they can point 
to their emissions and say we by ourselves aren't causing air 
pollution levels that are going to be unsafe or violating any 
environmental standards.
    The problem is our law doesn't capture this problem. It 
would work adequately if all air pollution sources were 
equitably distributed across the population. But here what we 
have is essential problems where we have clusters of air 
pollution sources in low-income communities of color, and that 
problem is just completely unaddressed.
    So what would it look like? It would basically flip our air 
pollution laws to finally address the concerns of low-income 
communities of color, and in a lot of ways it makes sense. Air 
pollution--if you have an unsafe level of air pollution - it 
exists whether it is caused by one company or other companies. 
To adequately address this problem, you need to basically force 
companies to look at all of the level of air pollution in a 
community to determine if their emissions are going to be 
contributing to unsafe levels of air pollution in that 
neighborhood.
    Mr. Rouda. Thanks. I now recognize myself.
    Ms. Shariff, you talked a lot about I think it is five 
years now that we have been dealing with the Flint water 
crisis. Obviously, it went on for decades and decades and 
decades prior thereto. Can you expound a little bit on what you 
have suggested that the Federal Government can do to address 
the issue in Flint that really has repercussions well beyond 
Flint?
    Ms. Shariff. One of the things that I would like to expound 
on a little bit more is this idea of Medicare For All. In the 
2009 Affordable Care Act, Senator Max Baucus inserted a clause 
in the ACA that covered the workers in communities in Libby, 
Montana. They were exposed through a vermiculate mine to 
airborne asbestos from a mine that was owned by the WR Grace 
Company, and you had the community suffering and workers 
suffering from mesothelioma, asbestosis, and other 
environmental and health issues.
    Under that clause, it was immediate. It was Medicare For 
All, so you did not have to be 65 and older, and it was a 
national alert that was put out, like, hey, if you lived in 
this community, this is long-term healthcare. That is something 
that needs to happen immediately in Flint and in other 
communities that are suffering from environmental justice 
issues.
    So I really hope that this gets adopted because it is 
something--what is happening now in Flint, we have kind of an 
expanded Medicaid, and that in itself is very, I would say, 
kind of prison-y, because you are locked within the state of 
Michigan. You can't move. You are kind of trapped. You are free 
to access this sort of healthcare, which is not really all that 
great because you are within the Medicaid system. So that has 
its own host of issues where you can't go to a private health 
provider, you have to go to clinics, you are waiting two to 
three hours, you are getting abused, and so you have a lot of 
people who don't even want to expose themselves to being 
mistreated in the healthcare system. But you are kind of stuck 
because you may not have the money to even utilize and access 
healthcare.
    Mr. Rouda. Mr. Leonard, this is a question for you, and it 
plays on what I just asked Ms. Shariff, and that is, Ms. 
Shariff, what you were talking about is really addressing the 
unfortunate outcomes of environmental injustice. Mr. Leonard, 
can you talk about what the Federal Government can do to help 
prevent environmental injustice from even occurring, as well as 
what we can do on the back end as well?
    Mr. Leonard. Of course. So, I think the place to start is 
developing laws and policies that specifically address the 
unique environmental issues that are confronting low-income 
communities and communities of color. So I think it is 
important to recognize that there are multiple different 
environmental concerns that communities of color have. We 
talked a bit about air quality, and so what that looks like is 
changes to the Clean Air Act to specifically address the 
concerns that we are hearing about today, to address cumulative 
impacts. When we are talking about drinking water quality, we 
are talking about revisions to the copper rule that exists 
under the Safe Drinking Water Act to make sure that crisis 
doesn't occur in other cities the way it was allowed to occur 
in Flint.
    But in addition to just talking about changes to laws and 
regulations and things like that, I think it is also important 
to mention the process by which those changes occur. In my 
testimony I talked about how environmental injustice was 
allowed to happen largely because communities of color and low 
income weren't there when those environmental laws were 
created, and I think that is the root of the problem.
    So not only do there have to be changes to our laws and 
regulations to address those concerns, but they have to be 
changes that are developed basically in partnership with those 
communities in order to ensure that they are real solutions, 
not fake solutions that won't address the root of the problem.
    Mr. Rouda. As we all know right now, this is a very 
difficult time with the President and the current 
administration not meeting their obligations under the EPA; in 
fact, even rolling back regulations through administrative 
action. So as much as we need the EPA now more than ever to 
step forward and help out, what do you believe our prospects 
are in getting the EPA to do anything with the current 
administration and the current president?
    Mr. Leonard. Well, I am not going to sugar coat it. Things 
are rough under the current administration, but I think it is 
also important to note that things--I mentioned Title 6 of the 
Civil Rights Act and the mis-administration of that program. 
That has occurred under both Republican and Democratic 
administrations. That has occurred throughout the years where 
essentially we have had complaints of discrimination submitted 
by communities such as Flint, other environmental justice 
communities throughout the United States basically saying we 
are being impacted by what we think is a discriminatory 
decision by our state agency, we need a full investigation, we 
need help, and the EPA hasn't been there for those communities 
throughout the years.
    So it is important--a lot of these solutions are long-term 
strategies, and I don't anticipate that they will be there 
tomorrow or the next day. What I do think is necessary is 
diligent work to continue to move forward toward a variety of 
solutions that center on those communities of color and low 
income.
    Mr. Rouda. Thank you.
    One of the honors for both Vice Chair Tlaib and myself is 
to work under the chairmanship of Elijah Cummings. The 
Oversight Committee, even though we have a president and an 
administration who are thumbing their noses at their 
obligations under the EPA and so many other areas, we have a 
Chair in Elijah Cummings who is doing everything he can with 
the committee's support to hold them accountable, and we will 
continue to do that, and I am thrilled to be with him.
    [Applause.]
    Mr. Rouda. I will tell you why it is important, and I am 
going to hand the microphone to Congresswoman Tlaib in a 
second. The reason it is important is, yes, you have unique 
challenges here in these communities, but unfortunately across 
the United States we have seen corporate polluters take 
advantage of Americans everywhere, as well as internationally. 
And even though my district in California, Orange County, is 
2,000 miles away, we deal with similar situations. As we saw in 
the PFAS committee hearing we just had about a week-and-a-half 
ago, corporate polluters will stop at nothing other than 
government holding them accountable because they will continue 
to put profits before people.
    Ms. Tlaib. Thank you.
    So, we have some questions from the audience. I am going to 
do--Ms. Shariff, one of the questions is directly to you. What 
can be done about infrastructure of leaded water pipes 
throughout Detroit and Wayne County? Millions are being lead 
poisoned every day.
    Ms. Shariff. Well, last year the state of Michigan revised 
its leaded copper rule. With that revision, the lead service 
lines, at least across the state, will be replaced, and the 
residents do not have to pay for that. That is something that 
the water systems have to pay for. But when it comes to 
internal plumbing and water main replacement, unfortunately 
right now that is going through the normal process. So I would 
suggest for at least the water main replacement, for people to 
kind of get into their local municipalities around the time 
when it comes for them to develop their budget and to really 
advocate for those particular dollars to go toward water main 
replacement. Unfortunately at the Federal level, there aren't 
large swaths of money outside of the revolving loan funds to go 
toward infrastructure replacement.
    Ms. Tlaib. Before you pass that out, one of the things that 
we weren't able to put forward because Monica Lewis Patrick 
couldn't come, but she was going to talk about water 
affordability. Can you touch a little bit on that, please? I 
can do it, but I don't--Mr. Leonard can also do it.
    Ms. Shariff. Well, it is something that people around the 
state have been working on for quite a while. Within Detroit, 
under the leadership of ``We the People,'' they work toward 
passing an income-based water affordability plan that 
unfortunately was never fully implemented. That meant that it 
would be based on your ability to pay. So that would be between 
two and four percent of your household income; that is what you 
would actually pay for your water.
    How it is now, there is a water fee that is unregulated. 
Water companies can really charge however much they want to 
charge for water fees, and then there is the water usage. It is 
something that we have been fighting for and we continue to 
fight for, and unfortunately the critique at the state level 
flies in the face of the Hedley Amendment, and I am sure Mr. 
Leonard could probably talk more about that. But it is 
something that people on the ground continue to fight for.
    Mr. Leonard. Drinking water affordability is one of those 
issues that keeps me up at night, because I think it is going 
to get worse before it gets better. I mentioned the gross 
underinvestment in our drinking water infrastructure throughout 
the country and basically needing to dedicate 20 times what we 
are currently dedicating in terms of grants and loans from the 
Federal Government.
    So where that burden falls when there is a lack of grants 
and loans from the Federal Government is it falls on 
ratepayers. In Detroit already, we have just tens of thousands 
of people who have had their water shut off, and like I said, 
it is going to get worse before it gets better unless we have 
some legal protection for a right to affordable water, which we 
just don't have right now, and we don't have any political 
courage at the local level or at the state level currently to 
take on this issue.
    This is not just a Detroit issue. This is an issue that is 
playing out in communities of color across the country, and it 
is one that desperately needs help. I mean, like I mentioned, 
recent surveys in Michigan have found people sort of switching 
off paying their energy bills and their water bills, people 
defraying medical costs, people defraying costs for food and 
stuff like that to be able to afford their water.
    We need Federal protection to guarantee a right to 
affordable water in order to ensure that people have access to 
this basic human need.
    Ms. Tlaib. One of the questions from the audience for 
myself and Chairman Rouda is with the President rolling back 
all the clean water protections, what plan of action is this 
committee going to take to protect the Great Lakes and the 
vital waterways? That is from Ms. Landrum, who lives in this 
neighborhood.
    Well, for me personally, part of the way we fight back is 
funding the Great Lakes Restoration Initiative, fully funding 
it. He keeps rolling that back. And putting resources in the 
hands of environmental agencies and organizations. But the 
committee has also held a number of hearings led by Chairman 
Rouda on PFAS contamination and holding those industries 
accountable.
    But one of the things that people may or may not have 
missed that Mr. Leonard talked about is the main theme here is 
environmental racism, right? So the Civil Rights Act was passed 
over 50 years ago, and in there the core intent was that you 
could show disparate impacts as a way to access the courts to 
say you are being discriminated against based on your whatever 
background, and it could also be based on your source of 
income. So if you are low income, if you are Wayne County and 
you are low income and you are a woman, whatever it is, a 
protected class.
    The point is the Justice For All Civil Rights Act, which I 
am introducing, goes back to the core intent of the Civil 
Rights Act, because the case law that Mr. Leonard talked about, 
there are a number of cases actually that really rolled back 
our access to fight back in this way of saying this is 
environmental racism, you are only doing this because this is a 
predominantly black neighborhood or this is a predominantly 
low-income neighborhood. This would basically allow us to 
proceed with disparate impact, saying that the impact of the 
policy, the impact of the funding, anything, resources being 
pulled in, not having inspectors close by, that that is all 
based on structural racism within not only the public but the 
private sector as well.
    So the Justice For All Civil Rights Act is the way we do it 
because, to me, that is going to be transformative. It is not 
just going to be about corporate polluters but also our own 
government, which now is not creating a pathway to affordable 
water, that you are seeing a lot of implementation at all 
levels of government where our communities, especially 
communities of color and low-income communities, and many parts 
of my Wayne County community are not only African American but 
they are also very, very poor white, Latino communities that 
are literally not getting access to the same protections that 
other communities have. So that is another way.
    I also think one of the questions that came up was the 
Clean Air--and by the way, whoever wrote this, this is the best 
penmanship I have ever seen in my life. It looks like it is 
typed, doesn't it? That is incredible. Whoever that is, wow.
    [Laughter.]
    Ms. Tlaib. The Clean Air Act mandates tech-based standards 
that are ``technologically and economically feasible.'' As 
such, achieving maximum public health results in sacrifice 
zones in favor of plant operation. What regulatory tools are 
available, and are you willing to use or maybe to shift the 
balance from industry to the people?
    It sounds like this is about basically allowing us to have 
more of a say whether or not to allow a permit to come into our 
space and where we live. Nick Leonard did mention amending the 
Clean Air Act to change the permit calculus, and I think that 
is the way to do it. I think most of the transformative changes 
that have happened in our country, from passing the Clean Air 
Act to getting women the right to vote to civil rights, 
fighting for civil rights in our country, didn't happen because 
of something that happened in the halls of Congress, really. It 
doesn't start there. It always starts with all of you.
    Please believe that, that movement starts with you that 
demands it of us to make sure that you have access to 
community-based, impact-based air permits to clean water to 
affordability, to all of those things.
    The last question that was part of the stack is a very 
weighted question because this is something that, as a state 
representative, Chairman, I struggled with and again continue 
to struggle with as your Member of Congress. When will we hold 
Marathon responsible? That is all it says, and it is to Mr. 
Leonard. It is, it says to you.
    Mr. Leonard. That is a great question, and I think the 
answer is every day. We have to work to hold Marathon 
accountable every day that it continues to operate, because it 
will seek to maximize its profits. It will not inherently have 
the community's best interests at heart.
    I am not going to lie to you, there will be days when you 
are going to be tired and you are going to think it is not 
making a difference, but none of these environmental justice 
victories that I have ever worked on, that I have ever heard 
about or that somebody has told me about have ever come easy. 
They have never been, oh, we worked on it for a week and then 
it was done. You worked on it for years, and you struggled for 
years, and there are long nights and late nights and all of 
those things, but eventually you got there. I think it is 
important to keep that faith and important to realize that you 
can win and that people have won and that it is possible.
    Mr. Rouda. Now I have a few questions as well. One of the 
questions was how does the community deal with interacting with 
corporate polluters? Dr. Leonard, I will direct that question 
to you.
    Dr. Leonard. How does the community? With your feet and 
your dollars. Money is power. If you go back to the civil 
rights era, it was with our money. We didn't buy here. So there 
was the period of time--and I still don't buy Marathon oil. I 
don't go to Marathon's gas stations. Other people may, but I 
elect not to. However, I will acknowledge publicly that I have 
Marathon stock. I bought Marathon stock so that I can see what 
they are doing. I get a copy of their annual report, and I read 
it. I make comments, not necessarily to the company. I don't 
attend their annual meetings down in Finlay, Ohio. But I read 
who is being elected. I look at their qualifications. I read 
what is happening in other areas where Marathon is buying 
property. So becoming a stockholder gives you a voice, a voice 
that you can vote. You may not even agree with what is being 
presented. You may agree with what is being presented. But you 
can vote.
    In 2007, the Sierra Club threatened to sue Marathon because 
Marathon had asked the city of Detroit to have some finances 
reduced, give them some money, you do this for us, we will give 
you some money. The city of Detroit bought into it. They would 
get jobs. Mind you, those jobs were not going to be Detroit 
residents. I saw all those people coming in from Texas.
    So Marathon had said to the city of Detroit, if you don't 
let us come in with our expansion, we will go elsewhere. Well, 
later the city of Detroit found out that Marathon had not 
approached this other community. It was a dupe.
    But the Sierra Club brought in their own lawyers. I was 
fortunate to sit at the table during negotiations. Marathon 
brought in attorneys from Chicago. One day, there were five or 
six attorneys sitting across the table from the Sierra Club 
Detroit person. There was a Sierra Club attorney from 
California, myself, and another resident from Melvindale. It 
was you reduce your sulfur emissions or we will sue you. It 
wasn't to play chicken. It was this is what is going to happen.
    I want you to know Marathon did reduce their planned sulfur 
output.
    [Applause.]
    Dr. Leonard. In addition to that, if I may, sitting at that 
table at that time, Marathon had indicated they were going to 
put four fence line monitors around their property, monitors 
that would evaluate what they were emitting. I asked for 
monitors at our schools. Our children are vulnerable. Our 
children, that is our future. Marathon said they would 
consider, and they brought back a proposal that they would not 
place a monitor at Mark Twain because of the wind direction. 
However, we will place one of our four at Boynton School.
    So I don't know if you have noticed that there is an air 
monitor at Boynton School, and you can see it from Conway.
    Mr. Rouda. Thank you.
    I have a couple of cards here with questions. One was PFAS 
is a concern in more places than drinking water, concerns 
regarding soil contamination and the accumulation of PFAS.
    Let me share a little bit more about what we have been 
doing in this area on this committee, and that is addressing 
perfluoroalkyl and polyfluoroalkyl chemicals, PFAS chemicals. 
There are over 5,000 variants of these chemicals. The original 
ones, PFOS and PFOA, have been mostly discontinued in the 
United States. But the PFAS chemicals are still around.
    The reason these chemicals are so horrific is that they are 
called ``forever'' chemicals. They will be around long after 
all of us pass away, as well as our children, our 
grandchildren, and future generations. They accumulate in your 
blood, in your tissue. We had very interesting testimony last 
week when we had Chemours, Dupont, and 3M address our committee 
on PFAS contamination across the United States. Some of the 
stories that we had prior to that with people who had come in 
and talked about their extreme contamination from these 
chemicals was nothing short of heartbreaking, much like much of 
the testimony we heard today from many of you, including Ms. 
Lockridge.
    We know that this is a concern that is not yet being fully 
understood by all Americans as to how pervasive PFAS chemicals 
are and how impactful it is going to be on drinking water 
everywhere. When we look at drinking water challenges--not just 
Flint, not just Detroit, but everywhere--and the impact of PFAS 
chemicals, the challenges that the technologies to eliminate 
PFAS chemicals to create clean drinking water currently is 
online with reverse osmosis, which is almost like a 
desalination plant.
    There are very few municipal water districts in the United 
States of America who can afford to do reverse osmosis to 
ensure clean drinking water. Of course, that is just clean 
drinking water for us. That doesn't include livestock, food 
chains, agriculture and so on. So we know we have a huge 
challenge, and that is why I am honored to be working with Vice 
Chair Tlaib and shining a light on this incredibly important 
topic.
    The other card asks when are we going to address the coal-
burning plants that form dual threats to the quality of life in 
Southeast Michigan? I can tell you that it is a threat not just 
here but across our country and across the globe. We have a 
president who not only abdicated his leadership in the Paris 
Climate Accords by withdrawing--and to put this in perspective, 
when President Trump made the commitment to withdraw from the 
Paris Climate Accords, there were only two countries on the 
face of the earth who were not participating in the Paris 
Climate Accords. That was Syria and Nicaragua, who have since 
joined the Paris Climate Accords. So the only country that has 
not made a commitment to the Paris Climate Accords is the Trump 
Administration, and that abdicated leadership is why it is more 
important for all of us in this room and for us in our 
committee work to continue to shine a bright light on these 
topics and fight like hell, because we have to get to a clean 
energy environment. Electricity needs to be produced through 
clean-tech energy.
    [Applause.]
    Mr. Rouda. That is why the overriding narrative of this 
subcommittee's work is on climate change, past, present, and 
future. What did we know, when did we know it, and why didn't 
we do anything about it? Present, understanding the true human 
and economic impact of climate change. And, by the way, it is 
easy to predict the economic impact, and it is easy to predict 
the human impact when you literally have to count the number of 
people who have lost their homes, who have died because of 
climate change events. What becomes harder is understanding the 
impact of climate change when you are dealing with the 
illnesses, whether it is wildfires in California that are 
causing increased asthma, or the pollution that you deal with 
every single day, both in your air and soil pollution and the 
healthcare impact there.
    Then we are going to talk about the future and have two 
very clear avenues, the idea that we can have an apocalyptic 
outcome or a nirvana outcome, and it is going to take all of us 
to focus on what we can do to make sure we ensure that we have 
a safer world for our children, our grandchildren, and future 
generations.
    With that, I am going to turn the mic back to Congresswoman 
Tlaib for a few closing comments, and then I will do so as 
well, and then we will adjourn.
    Ms. Tlaib. Thank you so much, Chairman.
    I want to thank you all so much for testifying. All of you 
play an incredibly essential role in addressing environmental 
racism in our country and the fight against corporate assault 
on our families. That is exactly what it is, and that corporate 
greed is driving a lot of these policies, and it is not 
specific policies. Sometimes it is just the policy of doing 
nothing, just deciding not to do anything. That is also a set 
policy, and it is so critically important that we elevate the 
voices of so many residents that are not in this room that are 
dealing with this on a daily basis, every single day, and now 
their children.
    I want to thank, of course--my state representative just 
walked in, Ms. Cynthia Johnson. Thank you so much for being 
here.
    [Applause.]
    Ms. Tlaib. Most of what we are going to be able to do, not 
only fighting to restore the Civil Rights Act, to be able to 
challenge a lot of the injustice that we see in the courts, but 
also to not only fund the Great Lakes Restoration Initiative 
but also how do we move, like the Chairman said, toward a 
cleaner, better way of producing energy and so forth is our 
commitment, our commitment to the movement work that is outside 
of the halls of Congress where it is going to have to happen.
    More of you, as much as you organize, as much as you 
believe in clean water and clean air, you have to start taking 
more and more actions. It is not going to be just talking to 
each other, which we do a lot, but also picking up the phone 
and calling. Many of you texted me and called me what happened 
last week, and I said did you call the EPA? Call the Michigan 
Department of Environment. We call it EGLE now. I put it out 
there. I gave people the 800 number. Trust me, when 200 or 300 
or 400 people are calling within Wayne County about what they 
are experiencing, it is documented. It is not like, oh, the 
Congresswoman is upset. It is, oh, we got 300 calls from 
residents throughout the neighborhood that are calling. It 
gives so much credibility to what you are trying to do when you 
say I can't breathe, I just had an asthma attack, I smell this 
odor outside of my home. It is so critically important.
    Many of you do this already. I used to get the call list. 
But it is the same 20 people. I am asking all of you, before 
you leave, see my staff. We have magnets, like we have a right 
to breathe clean air. If you see anything, please report it. It 
helps elevate the work that we are doing on a national level if 
you are holding corporate polluters here locally accountable 
here, and it is critically important as we proceed to push 
forward policy that is more humane and more just for all of us.
    But again, I can't thank you all enough for helping to put 
a human face to it. Please know that this is just the 
beginning. I know from hearing all of you that it refuels me to 
being even more committed to elevating your voices, but also 
fighting against environmental racism and corporate greed. But 
we at the Federal level in Congress need to do more, and we 
know that, but you all doing this and showing up reconfirms for 
us, kind of gets us recommitted again to really trying to push 
forward.
    The one thing I have learned--and you all know this. Many 
of you talk to me about how is it going, it is your first year, 
and I tell you that there seems to be this lack of urgency, you 
know? I just want you to know that this makes us feel, like, 
okay, we have to move quicker. Yes, this is urgent, this is 
911, we have to move. I mean, how many times do we need to 
study the fact that we are dying? We don't need that anymore.
    [Applause.]
    Ms. Tlaib. So just know that all of your work is so 
important, and it is this partnership, this kind of level of 
partnership that is going to be able to get us transformative 
change for all of us in our communities.
    Thank you all so much. I am incredibly, incredibly proud to 
represent you in the U.S. Congress.
    [Applause.]
    Mr. Rouda. I too would like to thank our witnesses for 
participating today.
    The members will have up to five legislative days to submit 
additional questions to you. We would just ask that in the 
event that happens, that you please give those answers back to 
our staff as quickly as possible.
    It has been an honor to be here with all of you today. One 
of the things I always talk about is shining a light on these 
issues. Like Vice Chair Tlaib, I am a freshman. I have never 
run for office before in my life. I defeated a 30-year 
incumbent.
    [Applause.]
    Mr. Rouda. I always got asked, I always got asked why do 
you think you can do more in Congress than a 30-year incumbent? 
Well, candidly, the bar was fairly low. But that aside----
    [Laughter.]
    Mr. Rouda. We have an obligation as Members of Congress 
wherever we go to remember that we have a podium and a 
microphone, and that we need to use that podium and that 
microphone to shine a bright light on the issues affecting our 
country and our communities, and that is why I am very proud to 
serve with Congresswoman Tlaib.
    [Applause.]
    Mr. Rouda. I will leave you--since Ms. Lockridge used a 
Martin Luther King, Jr. quote earlier, I may not have it exact, 
but I shall do my best. Martin Luther King, Jr. said that we 
and our ancestors may have come over on different boats, but we 
are all in the same boat now, so let's work together and 
address the issues facing all of us.
    [Applause.]
    Mr. Rouda. Thank you.
    This hearing is adjourned.
    [Applause.]
    [Whereupon, at 3:42 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
